No. ________________________
IN THE SUPREME COURT OF THE UNITED STATES
__________________________

NAZARI VASILICH CAM,
Petitioner,
v.
STATE OF OREGON,
Respondent
__________________________

On Petition for a Writ of Certiorari to the Court of Appeals of the State of Oregon
__________________________

PETITION FOR WRIT OF CERTIORARI
__________________________

ERNEST G. LANNET
Chief Defender
KYLE L. KROHN
Senior Deputy Public Defender
Counsel of Record
Office of Public Defense Services
1175 Court Street NE
Salem, OR 97301
Telephone (503) 378-3349
kyle.krohn@opds.state.or.us

QUESTION PRESENTED
Whether a state appellate court must appoint counsel sua sponte for an
indigent criminal defendant who represents himself at trial, files a notice of appeal
pro se, and does not expressly assert or waive the right to counsel on appeal.

RELATED CASES
Oregon Supreme Court, S067889, State of Oregon v. Cam, October 1, 2020;
Oregon Court of Appeals, A173276, State of Oregon v. Cam, April 6, 2020, recons den,
July 7, 2020; Yamhill County Circuit Court, 18CR42157, State of Oregon v. Cam,
December 19, 2019.
OPINIONS BELOW
The Oregon Supreme Court’s order denying review is unpublished but
reprinted at App. 3. The Oregon Court of Appeals’ orders dismissing the appeal and
denying reconsideration are unpublished but reprinted at App. 1 and 2. The trial
court’s judgment is unpublished but reprinted at App. 24-32.
JURISDICTIONAL STATEMENT
The Oregon Supreme Court denied discretionary review on October 1, 2020.
Under this Court’s March 19, 2020, order extending the time to file a petition for a
writ of certiorari to 150 days from the date of an order denying review, the petition is
due March 1, 2021. This Court has jurisdiction under 28 U.S.C. § 1257.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment to the United States Constitution provides, in
pertinent part, “[N]or shall any state deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.”

1

STATEMENT OF THE CASE
The State of Oregon charged Mr. Cam with felony driving under the influence
of intoxicants and several misdemeanors. The trial court initially found that Mr.
Cam was indigent and appointed a lawyer to represent him, but the court later
removed the lawyer. Although Mr. Cam had initially applied for court-appointed
counsel, and he protested his lack of counsel throughout the trial, the court found
that what he really wanted was to be represented by a lawyer who was not a member
of the Oregon State Bar. The court concluded that it could not grant that request and
that Mr. Cam had validly waived his right to counsel. A jury convicted him, and the
court sentenced him to 20 months in prison.
Mr. Cam, still representing himself, timely filed a notice of appeal to the
Oregon Court of Appeals. But he did not serve the District Attorney with the notice
as required by Oregon law. The notice is attached at App. 33-37.
In the meantime, the trial court sent Mr. Cam a letter stating that he qualified
for appointed counsel on appeal and encouraging him to contact the Oregon Office of
Public Defense Services to obtain representation. The trial court also sent a copy of
the letter to the Oregon Court of Appeals.
The Court of Appeals ordered Mr. Cam to show cause why his appeal should
not be dismissed for deficient service. Mr. Cam did not respond to the order. He
neither requested nor waived counsel on appeal, and the Court of Appeals did not
appoint counsel for him or ask whether he wanted counsel. When Mr. Cam failed to
correct the deficient service by the statutory deadline, the court dismissed his appeal.

2

A few days later, a lawyer from the Office of Public Defense Services moved
the Court of Appeals for appointment of counsel on Mr. Cam’s behalf, and the court
granted the motion. Counsel filed a petition for reconsideration of the order of
dismissal, arguing that the court had violated the Fourteenth Amendment by not
appointing counsel for Mr. Cam sua sponte before it dismissed his appeal. The
petition for reconsideration is attached at App. 5-15.
In response, the State of Oregon argued that the court was not obliged to
appoint counsel sua sponte because Mr. Cam had represented himself at trial and did
not request counsel on appeal. The State’s response is attached at App. 16-23. The
Court of Appeals issued an order denying reconsideration that adopted the State’s
position. The Oregon Supreme Court denied review by summary order.
REASONS FOR ALLOWING THE WRIT
This Court should allow the writ because the decision of the Oregon Court of
Appeals conflicts with this court’s decisions in Swenson v. Bosler, 386 U. S. 258 (1967),
and Halbert v. Michigan, 545 U. S. 605 (2005). In Swenson, 386 U. S., at 260, this
Court held that a state court must appoint appellate counsel for “a defendant whose
indigency and desire to appeal are manifest” without waiting for the defendant to
request counsel. This Court noted that a state court could decline to appoint counsel
on appeal only if the record reflected that the defendant knowingly and intelligently
waived the right to appellate counsel. Id. Similarly, in Halbert, 545 U. S., at 623-24,
this Court held that the record did not reflect a valid waiver of appellate counsel when
“the trial court did not tell Halbert, simply and directly, that in his case, there would

3

be no access to appointed counsel.” Rather, this Court explained that “the State must
affirmatively ensure that poor defendants receive the legal assistance necessary to
provide meaningful access to the judicial system.” Id., at 624, n. 8.
In this case, the record before the Oregon Court of Appeals reflected a
defendant whose “indigency and desire to appeal” were “manifest.” Mr. Cam had
been found indigent by the trial court, and he timely filed a notice of appeal. Nothing
in the record showed that he knowingly and intelligently decided to waive counsel on
appeal. Swenson and Halbert therefore establish that the Court of Appeals had a
duty to appoint counsel sua sponte. The Court of Appeals failed to fulfill that duty,
and on reconsideration it held that it had no such duty.
The state court decided an important federal question in a way that suggests
it will fail to abide by this Court’s decisions going forward. And a decision from this
Court in this case would be especially helpful because state appellate courts
frequently deal with indigent defendants who wish to appeal and who have a right to
counsel on appeal under the Fourteenth Amendment. No other court can provide the
much-needed guidance about when the Fourteenth Amendment requires a state
appellate court to appoint counsel.
Respectfully submitted,
ERNEST G. LANNET
Chief Defender
_/s/ Kyle Krohn
_
KYLE L. KROHN
Senior Deputy Public Defender
Counsel of Record

4

